Executive Report


Return to the USDOJ/OIG Home Page


Office of Community Oriented Policing Services
Grants to the Guadalupe Police Department, California
GR-90-00-001
October 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of  grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing Services (COPS), to the Guadalupe Police Department (GPD), California.  The GPD received a grant of $73,038 to hire one sworn officer under Funding Accelerated for Smaller Towns (FAST) and $91,665 to hire one sworn officer under the Universal Hiring Program (UHP). The purpose of the additional officers under the grant program is to enhance community policing efforts.

In brief, our audit determined that the GPD violated the following grant conditions:

The GPD overdrew the FAST/UHP grants by $62,462 because of reimbursements that were not supported by costs.

	The GPD generally was not in compliance with the grant reporting requirements. The Department Initial Report understated the number of sworn officers in the police department. The 1996, 1997, and 1998 Department Annual Reports were not timely submitted.  The 1996, 1997, and 1998 Officer Progress Reports were not timely submitted.  The Financial Status Reports (FSR) for quarters ending March and June 1998 were not accurate.  In addition, four FSRs were not submitted and eight FSRs were not timely submitted.
	
These items are discussed in detail in the Findings and Recommendations section of the report.  Our scope and methodology appear in Appendix II.